Special Report
Return to the USDOJ/OIG Home Page
The Immigration and Naturalization Service's Contacts With Two September 11 Terrorists:  A Review of the INS's Admissions of Mohamed Atta and Marwan Alshehhi, its Processing of their Change of Status Applications, and its Efforts to Track Foreign Students in the United States
May 20, 2002
Office of the Inspector General
TABLE OF CONTENTS
PRESS RELEASE
EXECUTIVE SUMMARY
CHAPTER ONE:  INTRODUCTION
Introduction
Organization of the Report
CHAPTER TWO:  BACKGROUND
Organizational Structure of the INS
Visitor Visas
Entrance of nonimmigrants into the United States
Description of visitor visa classifications
Length of stay permitted by the visitor visa
Period of validity of the visa
Length of admission under the B-1/B-2 classification
Foreign Students
CHAPTER THREE:  ATTA'S AND ALSHEHHI'S ENTRIES INTO
THE UNITED STATES
Introduction
The Inspection Process
The primary inspection process
The secondary inspection process
Atta's Entries into the United States
Atta's first entry - June 3, 2000, Newark, New Jersey
Atta's second entry - January 10, 2001, Miami, Florida
Processing Atta at the POE
OIG analysis
Effect of departure while change of status application is pending
Atta's length of admission
Atta's third entry - July 19, 2001, Miami, Florida
Alshehhi's Entries into the United States
Alshehhi's first entry - May 29, 2000, Newark, New Jersey
Alshehhi's second entry - January 18, 2001, New York, New York
Alshehhi's third entry - May 2, 2001, Miami, Florida
OIG Conclusions on the INS's Admission of Atta and Alshehhi
CHAPTER FOUR:  THE INS'S DELAYED PROCESSING OF ATTA'S
AND ALSHEHHI'S APPLICATIONS FOR CHANGE OF STATUS
Introduction
Process to Obtain Nonimmigrant Student Status
Huffman Aviation's Initiation of Atta's and Alshehhi's Applications
for Change of Status
Processing at the Texas Service Center
INS service center organization and mission
Processing and adjudication of I-539 applications for change of status
Pre-adjudication processing
The adjudication process
The TSC did not adjudicate Atta's And Alshehhi's I-539 applications in a timely manner
RAFACS history for Atta's I-539 application
RAFACS history for Alshehhi's I-539 application
Backlogs at the TSC
Delay in the transmission of the school I-20 form to ACS
ACS's Processing of the School Copies of Atta's and Alshehhi's I-20 Forms
ACS contract to process INS immigration forms
How ACS processes I-20 forms
The mailing of Atta's and Alshehhi's I-20s to Huffman Aviation
OIG's analysis of ACS's processing of the I-20s
Atta's and Alshehhi's I-20s were handled in the same      manner as other I-20s received by ACS at the time
Atta's I-20
Alshehhi's I-20
The contract requirements for handling I-20s after
processing
OIG Conclusions Regarding the Delay in Sending the I-20 Forms to Huffman Aviation
Adjudication of Atta's and Alshehhi's I-539s
Requirements for approval for I-539 change of status
Signature requirement
Proof that applicant timely filed the application
Evidence requirement
Length of stay for nonimmigrant vocational students
Information that could have affected the adjudication
Completion of the course by Atta and Alshehhi on December 19, 2000
Lack of sufficient hours for "full course of study"
Departures by Atta and Alshehhi while their I-539 applications were pending
Production pressures and the I-539
OIG conclusions regarding the adjudication of Atta's and Alshehhi's change of status applications
CHAPTER FIVE:  THE INS'S FAILURE TO STOP DELIVERY OF
THE I-20S TO HUFFMAN AVIATION
Introduction
Actions of ACS and INS Employees
Actions of ACS
Actions of ACS and INS Employees
Retrieval of the Atta and Alshehhi files at the TSC
Actions taken by TSC and INS Headquarters managers
Reasons TSC and Immigration Services Division personnel
did not stop the I-20s before they were mailed to Huffman Aviation
TSC personnel
Immigration Services Division managers
OIG analysis
Actions of INS Headquarters Enforcement Division personnel
Organization of Enforcement Division
Events at INS Headquarters on and around September 11
Enforcement Division requests for information and the handling of Atta's and Alshehhi's files
Reasons stated by Enforcement personnel for not asking
for all INS records or files related to the terrorists
OIG analysis
The INS's Response to OIG Criticism
CHAPTER SIX:  THE INS'S FOREIGN STUDENT PROGRAM
Introduction
Background
Scope and methodology of review
Statistics on student visas
The student visa application process
Deficiencies in the Foreign Student Program
Inadequacies in the INS's process for approving schools
Legal requirements for schools to be certified to accept
foreign students
The I-17 petition and the INS's certification process
Inadequate resources devoted to school approval process
Lack of in-person interviews and site visits prior to
approval
Lack of re-certifications
Review of Huffman Aviation file
Lack of security features on I-20 forms
Inadequacies in collecting information concerning student
status
Deficiencies in the Student and Schools System (STSC)
database
Lack of enforcement
Lack of training for designated school officials and INS schools officers
Student and Exchange Visitor System (SEVIS)
History of SEVIS
How SEVIS will work
Data to be collected in SEVIS concerning foreign students
and exchange visitors
Data to be collected concerning schools
SEVIS procedures
School certifications
Issuance of I-20 to foreign student
State Department access to SEVIS
Inspectors' access to SEVIS and updating of student's record that student has entered the country
Updating of student's record once student enrolls in
school
Schedule for implementation
OIG analysis of SEVIS
Deficiencies that SEVIS will address
Improved data collection
Improving fraud detection and deterrence
Deficiencies SEVIS will not address
SEVIS implementation difficulties
Ensuring that approved schools are re-certified prior to the January 30, 2003, implementation deadline
Collecting the processing fee as required by statute
Conclusion
CHAPTER SEVEN:  THE INS'S PROPOSED CHANGES
REGARDING FOREIGN STUDENTS
Introduction
Proposed Processing Changes
Processing the student copy of the I-20
Database checks before I-539s are adjudicated
Check of NIIS database
Check of the Interagency Border Inspection System
Performance standards for CAOs
Proposed regulatory changes
Proposed change:  Aliens who enter the country without a
student visa may not begin a course of study until their I-539 petition for change of status to student has been adjudicated favorably.
Proposed change:  A visitor entering the country must articulate reasons that would support a length of stay longer than 30 days,   and if the visitor cannot the default admission period will be 30 days.
Proposed change:  Require prospective foreign students to demonstrate their intent to attend school at the time they are admitted on a B-1/B-2 visa in order to be eligible later to seek a change of status to F-1 or M-1.
Proposed change:  Require flight schools to initiate background    and fingerprint checks when a student seeks to learn how to fly  a plane over 12,500 pounds.
CHAPTER EIGHT:  RECOMMENDATIONS
Introduction
Recommendations
Management of the foreign student program
Recommendations that affect all foreign students
Implementation of SEVIS
Defining "prospective student"
Capturing information about part-time students
Recommendations that affect nonimmigrants who wish to  change their status to that of a student
Adequate resources to ensure processing of I-539
applications in 30 days
IBIS checks
Recommendations that affect immigration inspectors
Abandonment of I-539 applications
I-193 waivers
General recommendations
Performance standards for CAOs
INS policies
CHAPTER NINE:  CONCLUSION
APPENDIX:
INS FORM I-94 (ARRIVAL DEPARTURE RECORD) [Not Available Electronically]
CHART REGARDING WAIVERS AT JOHN F. KENNEDY INTERNATIONAL AIRPORT AND SEAPORT
INS FORM I-539 (APPLICATION TO EXTEND/CHANGE
NONIMMIGRANT STATUS)  [Not Available Electronically]
INS FORM I-20 (CERTIFICATE OF ELIGIBILITY FOR NONIMMIGRANT STUDENT) [Not Available Electronically]
LIST OF RECOMMENDATIONS